<html>
<title> - [H.A.S.C. No. 115-65] - SURFACE WARFARE: AT A CROSSROADS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 .                                  

                         [H.A.S.C. No. 115-65]

                    SURFACE WARFARE: AT A CROSSROADS

                               __________

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON READINESS

                          meeting jointly with

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 18, 2018

                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
258-968                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a> 

                                     
  

                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk

                                 ------                                

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     5
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     3

                               WITNESSES

Richardson, ADM John M., USN, Chief of Naval Operations..........     8
Spencer, Hon. Richard V., Secretary of the Navy..................     7

                                APPENDIX

Prepared Statements:

    Richardson, ADM John M.......................................    49
    Spencer, Hon. Richard V......................................    43
    Wilson, Hon. Joe.............................................    39
    Wittman, Hon. Robert J.......................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Hanabusa.................................................    58
    Mrs. Hartzler................................................    57
    Mr. Rogers...................................................    57
                    
                    
                    SURFACE WARFARE: AT A CROSSROADS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Readiness, Meeting 
            Jointly with the Subcommittee on Seapower and 
            Projection Forces, Washington, DC, Thursday, 
            January 18, 2018.

    The subcommittees met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the Subcommittee on Readiness) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good afternoon. Ladies and gentlemen, I call 
this joint hearing of the Readiness and Seapower and Projection 
Forces Subcommittees of the House Armed Services Committee to 
order.
    First, I would like to honor the 17 sailors who were lost 
in USS Fitzgerald, sailors Shingo Douglass, Noe Hernandez, Ngoc 
Truong Huynh, Xavier Martin, Gary Rehm, Dakota Rigsby, Carlos 
Victor Sibayan. And the 10 USS John S. McCain sailors, Kevin 
Bushell, Dustin Doyon, Jacob Drake, Timothy Eckels, Jr., 
Charles Findley, John Hoagland, Corey Ingram, Abraham Lopez, 
Kenneth Smith, Logan Palmer. And each one of them is so special 
to, I know, every person here.
    Over the course of the past 6 months, our subcommittees 
have met with Navy leadership to understand the causal factors 
that have led to four gruesome and tragic incidents involving 
surface ships resulting in the deaths of 17 sailors. I remain 
confident that our Navy remains the most powerful in the world.
    However, the Navy is not alone in responsibility. As 
Secretary James Mattis stated in August, quote, ``it just 
creates unpredictability. It makes us rigid. We cannot deal 
with new and revealing threats. We know our enemies are not 
standing still,'' end of quote.
    Passing another temporary measure compounds the negative 
impacts for our military. Some of those impacts are highlighted 
by the manning, training, and certification gaps necessitated 
by increased operational demand. Speaker Paul Ryan and Chairman 
Mac Thornberry have been clear and outspoken in promoting the 
critical need for a robust yearlong defense appropriations 
bill.
    I fully believe the primary responsibility of the national 
government is to provide for the national security of its 
citizens, and that is especially true of our sailors, soldiers, 
airmen, and Marines. Therefore, it is our responsibility as 
members of these subcommittees to better understand the 
readiness situation and how the Navy's Strategic Readiness 
Review and Comprehensive Review are informing and assisting the 
Department of the Navy in correcting any deficiencies and 
shortfalls.
    This week, the Navy announced additional actions for 
shipboard personnel involved in these collisions. Separate from 
these military actions, this committee remains concerned that 
senior officers who created the conditions for ships to not 
receive depot-level repairs, the individuals who chose to 
repeatedly approve waivers of expired certifications, and the 
individuals who had the ability to balance and globally 
resource operational requirements are not being held 
accountable.
    Today, the Secretary of the Navy, the Honorable Richard 
Spencer, and the Chief of Naval Operations, Admiral John 
Richardson, are here to testify to the Navy's Strategic 
Readiness Review and the Comprehensive Review for our hearing 
on ``Surface Warfare: At a Crossroads.''
    I remain concerned about the Navy's training and 
certification processes, the approach to correcting any 
deficiencies and shortfalls, and the Navy's approach to improve 
accountability. I hope that today's hearing will address these 
concerns.
    I would like now to turn to our ranking member, 
Congresswoman Madeleine Bordallo of Guam, for any remarks she 
may desire to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 39.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Chairman Wilson and 
Chairman Wittman, for convening this important joint hearing on 
Navy's readiness. And thank you also to Secretary Spencer and 
Admiral Richardson for being here today.
    Following several mishaps in 2017 involving U.S. Navy 
ships, you each directed separate, parallel reviews of surface 
fleet operations and readiness. The Strategic Readiness Review 
and the Fleet Comprehensive Review are important steps aimed at 
identifying and addressing the challenges that are our Navy is 
facing today. However, actions speak louder than words, and we 
must ensure that the recommendations included in these reviews 
are promptly considered and acted upon to improve the readiness 
of the fleet and prevent a repeat of the tragedies of 2017.
    Today's hearing is the first opportunity for members of 
this committee to discuss the recommendations of these two 
reviews. However, this committee's oversight of these issues 
will not end with today's hearings. I hope that members of this 
committee can continue a frank and an open dialogue with the 
Navy's leadership as progress is made toward implementing these 
reviews' recommendations.
    Without question, I think my colleagues would agree that 
the U.S. Navy is the most powerful fleet in the world. However, 
in the light of recent global events and the escalation of 
near-peer threats around the world, we must ensure that the 
Navy is properly manned, trained, and equipped to conduct the 
missions that may be asked of them.
    As highlighted by the four incidents of 2017, the high 
operational tempo and the lack of emphasis on ship maintenance 
and training have chipped away at the overall readiness of the 
fleet. One element of Navy readiness that I am particularly 
concerned about is ship maintenance, and specifically for ships 
operating in the Pacific. Over the past several years, we have 
engaged senior Navy leaders regarding the Navy's readiness 
requirements in the Western Pacific, specifically in depot-
level ship repair and dry dock capabilities and capacity.
    In the Fleet Comprehensive Review, the Navy identified 
capacity issues at the ship repair facility in Yokosuka, Japan. 
To our witnesses, I look forward today to hearing how the Navy 
plans to address the ship repair capacity issue in the Pacific 
and improve the material condition of the fleet. Furthermore, I 
also look forward to hearing how that plan will align with the 
President's 2018 National Security Strategy to maintain a 
forward military presence capable of deterring and, if 
necessary, defeating any adversary, which will be balanced with 
an economic strategy that rejuvenates the domestic economy.
    In addition to supporting proper ship maintenance, we must 
also ensure our surface warfare officers and sailors are 
receiving adequate training to perform the missions that are 
asked of them. We must empower ship commanding officers to 
express concerns up their chain of command without facing 
career-ending repercussions when they are tasked with a mission 
that they feel their ship or crew are not properly trained for.
    This is a management and a cultural issue for the Navy's 
leadership to address. And to that end, I look forward to 
hearing your plans to ensure sufficient time is allocated for 
training and maintenance, two pillars for restoring the Navy's 
surface readiness. I fear that it will be a long journey to 
return to proper readiness levels, but I do assure you that 
this committee will try to help you where we can. Similarly, we 
will not hesitate to raise concerns and issues with you as we 
perform our oversight role.
    I believe the Navy is in good hands and I look forward to 
staying updated on the progress of your work to restore 
readiness across the fleet. And I look forward today, this 
afternoon to your testimony.
    Mr. Chairman, I thank you, and I yield back.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    I now turn to the gentleman from Virginia and chairman of 
the Seapower and Projection Forces Subcommittee, Congressman 
Rob Wittman, for any remarks he may have.

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
  VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Wittman. Thank you, Mr. Chairman, and thank you for 
yielding, and I want to thank Secretary Spencer, Admiral 
Richardson for joining us today and for being part of what I 
think is a very needed and, I think, productive process to go 
through to make sure that we are making the necessary course 
changes to address this issue.
    Let me begin by quoting Dr. James Holmes. He is a noted 
Navy War College professor, and he recently wrote an article 
entitled ``Who Watches the Watchers in the United States 
Navy.'' In this article, he expressed concern about the 
apparent lack of accountability for the structural problems in 
the surface warfare community. He indicated that the Navy is 
quick in citing senior leadership's loss of confidence in 
commanding officers but is, at best, circumspect when assessing 
fault to the system that drove these commanding officers to 
seek what he calls the ``normalization of deviation.'' This 
culture of holding the commanding officer accountable is very 
apparent with the decision announced on Tuesday to bring the 
commanding officers, and other officials, from the USS 
Fitzgerald and McCain before an Article 32 hearing for 
negligent homicide.
    While I agree with the Navy that officers should be held 
accountable, I am equally convinced that we need to reform the 
system that drove these officers, to avoid additional incidents 
and to reduce future ``normalization of deviation'' instances. 
I think the Navy has taken a tremendously important and good 
first step at addressing these systematic areas, but there are 
a multitude of other issues that need to be reviewed, to 
include organization reform, manning deficiencies, material 
readiness, and serious training reform.
    While the Comprehensive Review and Strategic Readiness 
Review have identified the organizational problems facing the 
Navy, I think it is time to take bold steps in correcting the 
deficiencies that were identified almost 15 years ago. It is 
time to flatten the organization and centralize the title 10 
manning, training, and equipping authorities at Fleet Forces 
Command. It is time to reactivate the 2nd Fleet and eliminate 
4th Fleet to ensure the Navy retains an emphasis on deployment 
credibility. It is time that we consolidate Navy policy 
intellect by co-locating the three-star type commanders at 
Fleet Forces Command. And it is time for Congress to end 
restrictions that contributed to the 7th Fleet disorganization 
and allow the Navy to effectively reorganize.
    I am particularly disappointed with the manning levels of 
our forward-deployed naval forces, particularly concerning the 
disparity between different ship classes. I do not understand 
why forward-deployed naval forces are the worst manned forces 
in the surface Navy. They need to be the best.
    With regard to training, I am concerned that as our ships 
become more technically challenging to operate, our surface 
warfare community has retained a generalist preference that 
contributes to the surface warfare malaise. I think it is time 
that we adopt specialists similar to the aviation community and 
foreign navies.
    We should require surface warfare officers to specialize in 
deck or engineering and allow needed junior officers time to 
develop basic skills. Further, the Navy should consider 
adopting certification milestones similar to the commercial 
sector. The U.S. Navy needs to significantly improve the 
surface warfare pipeline to ensure Navy officers are provided 
basic navigation and engineering skills.
    Finally, as to correcting material issues, I think it is 
time that we start to take our INSURV [Board of Inspection and 
Survey] process seriously and correct the material problems 
facing the forward-deployed naval forces. INSURV is a 
statutory-driven process that provides Congress and our Nation 
a snapshot of the material condition of the fleet. I am 
concerned that the classification of the INSURV reports fails 
to provide our Nation a reasonable perspective of the negative 
consequences associated with underfunding the readiness 
accounts.
    Navy should be prepared to publicly articulate the risk of 
our surface ship maintenance. And we need to ensure that 
forward-deployed Navy forces are properly maintained with a 
competent workforce that has the capacity and skills to 
maintain the fleet. It is time that we routinely rotate ships 
back to the United States that have been forward deployed for 
over 20 years.
    We have significant challenges that face our surface 
forces, but with time and resolve I am confident that we can 
right the surface forces that are perilously askew.
    As to Dr. Holmes' question as to who watches the watchers, 
I want to unambiguously answer that this committee will 
continue to drive toward accountability and providing solutions 
to the systemic problems that face the surface warfare 
community. We will watch the watchers.
    I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 41.]
    Mr. Wilson. Thank you, Chairman Wittman. And now to the 
gentleman from Connecticut and ranking member of the Seapower 
and Projection Forces Subcommittee, Congressman Joe Courtney, 
for his remarks.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and thank you to 
Secretary Spencer and Admiral Richardson for your presence here 
today to update our subcommittees and the American people on 
the results of your reviews of last year's Navy ship 
collisions.
    This is the fourth engagement that we have held on topic 
since last fall, which is of the highest urgency, given the 
unacceptable level of fatalities in non-combat settings which 
occurred in 2017. For many members, even those who hail from 
districts far from the Western Pacific, these collisions strike 
home. In Connecticut, two outstanding sailors--electronics 
technician 2nd class Dustin Doyon of Suffield and sonar 
technician 2nd class Ngoc T Truong Huynh of Watertown, 
Connecticut, lost their lives. Given this drastic harm, it is 
the duty of all of us to ensure that bold, systemic change 
happens to protect our sailors and ships from similar tragedies 
in the future.
    Last week at the Surface Navy Association annual symposium 
held just across the Potomac in Virginia, a panel of young 
officers assigned to forward-deployed ships in Japan discussed 
the challenges they face maintaining readiness in the 7th 
Fleet. They described high operational tempo, the challenge of 
simultaneous training and operations, and long hours. Their 
most powerful comments, however, described a system in which 
they could not even be certain they understood the risks that 
they were taking.
    One junior officer stated that, following the collisions of 
the Fitzgerald and the McCain, he asked himself, ``I am 
certified for my position, but do I actually know what I am 
doing?'' Another officer, when considering the relatively 
incident-free deployment he had just returned home from, asked, 
``Are we good at this or are we just lucky?'' These anguished 
statements describe issues which go far beyond the particulars 
of any one ship. They speak to systemic problems in operations, 
training, and management of our surface forces.
    The Comprehensive Review and Strategic Review make dozens 
of recommendations for changes and reforms that are needed 
inside the Navy. After meeting with each of you, it is clear 
that many of these recommendations have been or are in the 
process of being implemented internally in real time. I urge 
you to continue to make the implementation of these 
recommendations a top priority and to keep Congress and 
families of our lost sailors updated on your progress.
    Other recommendations, however, will need Congress's direct 
attention and action. For example, one of the areas where both 
reviews agree is that Congress has contributed to these 
systemic readiness issues in the surface forces. Specifically, 
recent defense appropriations bills have carried language which 
restricts the Navy from realigning its man, train, and equip 
functions under a single command.
    These congressionally mandated command-and-control 
restrictions have allowed an unusual situation to continue in 
which Pacific Fleet, which is responsible for both deploying 
forces and determining when those forces are ready to deploy, 
and to do so separate from the rest of the fleet. As the result 
of your respective reviews--and as they have made clear, this 
arrangement allowed ships to be deployed without basic 
certifications and without meaningful plans to mitigate the 
risk to our sailors.
    While there is disagreement in the Comprehensive Review and 
Strategic Review about the best actual command-and-control 
structure for Navy surface forces, it is clear that continued 
congressional limitation in this area is a hindrance to the 
management and readiness of the fleet. Even before these recent 
collisions, Congress had seriously considered changes to this 
restrictive language. In 2016, the House voted unanimously to 
remove the provision completely, but it was later restored by 
the Senate in the 2016 NDAA [National Defense Authorization 
Act] and appropriations bill. It is my hope that we can once 
again work on a bipartisan basis to remove these restrictions 
from our funding bills and to see these efforts through to the 
end. Your input here today will be invaluable in that effort.
    The other obvious mission Congress can execute is to 
restore budget stability for the Navy. We need repair work to 
move forward in a timely manner. We need to increase the supply 
of combat-ready ships available to Fleet Forces Command rather 
than letting shipbuilding plans languish because of CRs 
[continuing resolutions]. The Federal Government has operated 
under CRs in 8 of the last 12 months, and it appears this week 
that that number is likely to grow to 9 out of 13. This is 
hardly the roadmap to a 355-ship Navy.
    I think I speak for my colleagues in saying that we stand 
ready to assist our witnesses today to create bold new 
institutional change. We owe it the memory of the sailors we 
have lost, we owe it to their families, and we owe it to those 
forward-deployed sailors who are asking themselves today, ``Am 
I just lucky?'' I look forward to your testimony.
    Mr. Wilson. Thank you, Ranking Member Courtney.
    We are grateful that Congresswoman Liz Cheney of Wyoming is 
present with us today. I ask unanimous consent that non-
subcommittee members be allowed to participate in today's 
briefing after all subcommittee members have had an opportunity 
to ask questions. Is there any objection? Hearing none, without 
objection, the non-subcommittee members will be recognized at 
the appropriate time for 5 minutes.
    Secretary Richard Spencer, we now turn to you for your 
remarks and briefing on the incidents.

  STATEMENT OF HON. RICHARD V. SPENCER, SECRETARY OF THE NAVY

    Secretary Spencer. Chairman Wittman and Wilson, Ranking 
Member Courtney and Bordallo, distinguished members of the 
committee, thank you for having us here today to talk about our 
reviews and how we are moving forward.
    I would be remiss, though, if I didn't start by saying that 
we should keep the sailors lost on McCain and Fitzgerald in our 
thoughts and prayers as we go forward.
    Over the past year, our surface fleet has continued to 
operate and train around the globe, filling a strong demand 
signal to help preserve our national security. At the same 
time, however, those operations have led to some tragic losses. 
Those losses demand that we take time to study, understand, 
make course corrections to ensure the safety of our most 
valuable resource, which is people.
    As you are well aware, we lost 20 sailors in major 
incidents in the Pacific last year. The loss of any sailor is a 
tragedy. All of us in the Department of the Navy stand in 
solidarity and support of our fellow sailors and families.
    I am here today as the responsible one and accountable for 
our most valuable resources. To fulfill these responsibilities, 
I am directing change across the fleet and Marine Corps to 
correct the issues identified in our analysis of those 
intolerable events. Both the Comprehensive and Strategic 
Readiness Reviews sought to identify factors that led to last 
year's accidents. The Comprehensive Review focused on the 
causal factors and underlying conditions at the tactical and 
operational levels, while the Strategic Readiness Review 
examined broader systemic and root causes.
    The Strategic Readiness Review found that the discovered 
deficiencies were not traceable to any single policy or 
decision, but were cumulative results of decisions aimed at 
achieving short-term goals. Overall, the review team found that 
accepting deviations from our standards, which translates into 
higher risks, had gradually become normalized, and therefore 
compounding accumulated risks. This must and will be corrected.
    As we move forward, success will not be attained overnight. 
My leadership team and I are working closely with the Navy-
Marine Corps team to examine, adopt, and implement 
recommendations from these reviews. The CNO [Chief of Naval 
Operations] will address remedial actions we have taken to 
restore us to an environment of safety and sustainability. 
Simultaneously, we are working through implementation plans for 
all of the reviews--the Strategic Readiness Review's 
recommendations.
    As we do so, we are addressing issues that fit into five 
categories--command and control, operations, manning and 
training, governance, and culture and learning. Many of the 
reviews' recommended corrective actions are within my authority 
to implement as Secretary of the Navy. Some, however, will 
require coordination with the Office of the Secretary of 
Defense, as well as with you, the Congress.
    The most important step that you could take now that would 
help us restore the health of the Navy is to give us stable and 
adequate funding. We must be able to count on reliable 
resourcing to operate safely and efficiently. Despite these 
challenges, I want to assure you--I want to assure you--that 
the Navy-Marine Corps team is still the most ready, capable, 
and lethal force in our arsenal.
    We know, however, that staying that way means we must seize 
every opportunity to improve, and we are committed to do so. We 
stand with the families of the fallen and their loved ones. 
Their repeated request that good must come out of these 
cathartic events rings true throughout our enterprise on a 
daily basis. We must act with a sense of urgency to grow our 
competitive advantage in a sustainable manner, and I look 
forward to working with you to do so.
    Thank you.
    [The prepared statement of Secretary Spencer can be found 
in the Appendix on page 43.]
    Mr. Wilson. Thank you very much, Secretary. And we now turn 
to Admiral John Richardson for your opening remarks.

   STATEMENT OF ADM JOHN M. RICHARDSON, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Richardson. Thank you, Chairman Wilson, Chairman 
Wittman, Ranking Members Bordallo and Courtney, and 
distinguished members of the Readiness and Seapower 
Subcommittees. I want to thank you for the opportunity to brief 
you today on our unified action plan to address the systemic 
issues identified in both the Comprehensive Review and 
Secretary Spencer's Strategic Readiness Review [SRR].
    Looking back, 2017 was a year of both triumph and tragedy 
for our Navy. We consistently forward deployed more than 60,000 
sailors and 95 ships and submarines around the globe to protect 
America from attack, advance our Nation's interests, and 
enhance our economic prosperity and strategic influence. But 
even as we achieve these successes, we were reminded of the 
unforgiving nature of operating at sea. Our Navy experienced 
five serious incidents in the Pacific, resulting in a loss of 
20 dedicated sailors, American patriots all, and our thoughts 
and prayers remain with our fallen shipmates and their 
families.
    And as we have said, our investigations revealed that these 
tragedies were due in large part to human error and failures of 
leadership as we took our eye off mastering the basics in 
seamanship and navigation. And we owe it to our fallen sailors, 
our Active Duty sailors, and our loved ones who support us to 
quickly and forcefully apply these lessons learned through 
corrective action, and that is exactly what we are doing.
    I testified before this committee in November on the 
findings of the Comprehensive Review led by Admiral Phil 
Davidson, commander of the U.S. Fleet Forces Command. As I 
outlined in my written statement, we have already acted on many 
of the report's 58 recommendations. Additionally, I established 
an oversight board, chaired by the Vice Chief of Naval 
Operations Admiral Bill Moran, to track the completion of those 
actions that remain in progress, things like command and 
control, surface warfare officer career paths, training, 
equipment, and certifications.
    Finally, as the Chief of Naval Operations, I am responsible 
for crushing any obstacles that prevent our sailors from 
achieving warfighting and safe operating at sea. So to get a 
deckplate perspective on our progress, in December I visited 
our naval forces in Korea, Japan, Bahrain, and the USS Theodore 
Roosevelt Carrier Strike Group on station in the Persian Gulf. 
And through my interactions with thousands of our sailors, it 
is clear to me that these incidents do not--repeat, do not--
define your Navy.
    It would be a grave, even lethal mistake to underestimate 
our capability and dedication. And it was also clear that our 
corrective action are already having a positive impact. But 
there is more work to do, and we will get it done, and we will 
get it done briskly, learning from our mistakes, capturing our 
successes, sharing those insights across the force, and 
improving upon our best every day, and we will do so, as the 
Secretary said, with a sense of urgency. By dedicating our 
hearts and minds, we will finish 2018 as the safest Navy in the 
world for our sailors, the favored partner in the world for our 
friends and allies, and the most lethal Navy in the world for 
our enemies.
    But before I close, I can't in good conscience testify 
before Congress about naval power without mentioning the toxic 
and corrosive effect of 9 years of continuing resolutions and 
years under the Budget Control Act. We are getting after the 
work we have to do, but the absence of stable and adequate 
funding for defense makes everything, everything that our 
sailors and their commanders do, harder. On a scale of 1 to 10, 
the importance of stable and adequate funding scores an 11.
    On behalf of our sailors, their families, and our Navy 
civilians, I thank the Congress and especially these 
subcommittees for your continued support in providing us the 
Navy our Nation needs. And I look forward to working with you 
and answering your questions.
    With that, I would like to pass it back to the Secretary.
    [The prepared statement of Admiral Richardson can be found 
in Appendix on page 49.]
    Secretary Spencer. Thank you, CNO. Mr. Chairman, I took--
you have taken a brief on the Comprehensive Review behind 
closed doors, and I know I met with a couple of you on the 
committee to explain the SRR. Would it be worthwhile for me to 
just do a 2- or 3-minute overview on the Strategic Review?
    Mr. Wilson. I think it would be very helpful, yes. Please 
proceed.
    Secretary Spencer. Thank you. After the accident occurred, 
the CNO and I both decided to take the path that we took, which 
was to immediately set up a review of the tactical and 
operational areas where we had to investigate due to these 
accidents. I took it upon myself to say, okay, let's go a 
little higher at 30,000 feet and see if we can go after the 
systemic and root causes.
    We engaged Michael Bayer, who is actually here today, 
former chairman of the Defense Business Board, and Admiral Gary 
Roughead, the chair of the Strategic Review. They went back and 
looked at 30 years of data to assess our present state of play 
and really look at systemic issues that are affecting us.
    We looked outside. We had them look outside to industry, 
and this is kind of an interesting point that I would like to 
present to those that didn't hear the brief. We incorporated 
people such as Crowley Marine. You might call that fairly 
obvious. They sail on the seas, also. They had a series of 
events that were unproductive for them, and they turned inside 
and re-examined how they did work and they came out the other 
side as a poster child, according to the Merchant Marine 
Academy, of an organization that upholds safety.
    We talked to Maersk, which also had some events happen to 
it that were cathartic, and they actually went through the same 
path and came out the other side. Boeing, in their industrial 
floors, increasing their capacity to produce, found that they 
were also running into areas where they were hurting their 
human resources, and they put a plan in place and came out the 
other side.
    BP North America, needless to say, we all knew the 
Deepwater Horizon event. They also went through the same. What 
is the common link here? It is organizations that had cathartic 
event that threatened them. We called them up, their CEOs 
[chief executive officers], and asked if they would help us in 
our analysis on the Strategic Readiness Review, and they were 
more than forthcoming to us and to all the assets we needed, 
including all the plans that came out on the other side. Didn't 
need the plans. Wanted to speak to the people who went on the 
journey from cathartic event to the development of the plans. 
We wanted to see how they got to where they got.
    One of the other people that we incorporated, which was 
quite interesting, was the Mayo Clinic. And you might say, how 
can you connect the Mayo Clinic to sailing on the blue waters? 
It is interesting. They had been doing some studies over the 
past 3 years, and we contacted John Noseworthy, the CEO of Mayo 
Clinic. They looked at large--I beg your pardon--long-term 
complex operations in the operating room, and they wanted to 
improve the outcomes. Think organ transplant. Think very 
complex operations, 7, 8 hours. The traditional mindset and 
operating environment was chief surgeon would raise his or her 
scalpel and go, ``Is everyone ready? Here we go,'' put the head 
down, and start working along the way.
    The professional teams in the room--the cardiac, the 
pulmonologist, the cardiac analysis, the anesthesiologist--were 
all working along one step behind or if, in fact, equal at 
best. They found that there was not a door open to turn around 
and say, ``Need a minute here, we are falling behind. Need to 
double set something.''
    They decompressed and decomposed the whole culture of the 
operating room and basically reset it, where the lead surgeon 
would lift up his or her knife and go, ``Is everybody with me? 
We are ready.'' And then every 1 or 2 minutes, sit there and 
go, ``Are we still all together?'' The environment for 
communication as the mission went forward was wide open. We saw 
a direct applicability to the bridge of a ship, the engineering 
department of a ship, and we incorporated that into the study.
    Twenty-three recommendations, ranging from command and 
control to culture to modeling, came forth. We are in the 
process now of actually triaging those recommendations. We have 
had our first meeting to date which we addressed command and 
control. We can go into that a little bit later. But we are 
moving out on that as the CNO has moved out with his CR 
[Comprehensive Review].
    I just wanted to give you all an overview as to what we 
actually did in the Strategic Review and the outcomes. And I 
appreciate it. Thank you.
    Mr. Wilson. Thank you very much, Mr. Secretary. As we 
proceed, we will be under a 5-minute rule so that we have as 
much opportunity as we can for each of the subcommittee members 
who are here. And this will be maintained by our professional 
staff member, Margaret Dean, who herself is a very valued 
member of the Navy Reserve.
    The first question and, of course, the timing begins on me, 
and that is the--for each of you, the forward-deployed naval 
forces have critical operational demands that took the USS 
Fitzgerald and USS John S. McCain away from dedicated 
maintenance, training, and certification periods. Which steps 
has the Navy taken to ensure that this is not continuing to 
occur with the remaining forward-deployed naval forces? Is the 
Navy reviewing current sourcing requirements? Additionally, has 
the Navy coordinated with the combatant commanders [COCOMs] to 
validate or review current mandatory sourcing requirements? How 
is the Navy leadership communicating an inability to resource 
or risk associated with resourcing the COCOM requirements? And 
for each of you.
    Admiral Richardson. Sir, I will begin on this. The simple 
answer is that the--particularly the forward-deployed naval 
forces in Japan have taken a look at the force generation 
process, the process by which they maintain and train and 
certify forces for the missions to which they are assigned. And 
so we started by rebaselining every cruiser and destroyer that 
is in the forward-deployed naval force of Japan, and so that, 
first and foremost, every ship that is underway right now has 
been assessed to be ready for those missions.
    And then it is a matter of just sticking to that plan so 
that we do provide sufficient time to maintain the ships, when 
they get out there is a sufficient time and attention given to 
training and certifying those ships before they get assigned to 
their missions. And so just that scheduled discipline has been 
established and enforced by Admiral Sawyer, the new commander 
of the 7th Fleet.
    With respect to meeting combatant commander demand, sir, as 
you are very well aware, we have not been close as a joint 
force meeting combatant commander demands for a decade. We 
traditionally meet about 50 percent of the requested forces, 
and that is not just the Navy. That is across the joint force. 
So there is a constant adjudication that goes on to find the 
priority missions, and we are doing that mindful that the 
forces have to be trained and certified before they go.
    Secretary Spencer. My only addition to that, Mr. Chairman, 
would be think of the Mayo Clinic example I just brought up 
right now. The CNO and I are in lockstep when it comes to man, 
train, equip, that we have an atmosphere that people can speak 
up. And I don't use the word no. I use the phrase not today. It 
might be ready tomorrow, it might be ready in a week, but is 
upon us to have that--instill that environment within our 
organization to make it that much of a more reactive and 
effective organization.
    Admiral Richardson. Sir, if I could just pile off of this, 
as long as we are talking about this, those conversations have 
happened, happened today and have happened, right? This is not 
a Navy where there is a cultural inhibition to having that 
happen. And those officers have gone on to have fruitful 
careers and promotions and everything else. So these types of 
conversations happen in our Navy right now, have been happening 
for some time, so it is possible to have this without career 
implications.
    Mr. Wilson. Additionally, investigation documents indicate 
that the shipboard, squadron, and fleet leadership were 
properly reporting on training and material deficiencies in 
requesting relief, yet these individuals were fired. How is the 
surface warfare Navy addressing the culture of accountability 
and empowering commanders to highlight deficiencies and 
properly inform the chain of command of risks associated with 
these decisions without facing punitive action?
    Admiral Richardson. Sir, I will tell you, this goes right 
to what it means to be in command. And so when personnel were 
held accountable--and that went up to the 7th Fleet commander, 
so this was not restricted to the unit level--and this level of 
accountability, frankly, hasn't been--at that senior level has 
not really occurred since World War II, and so in terms of 
watching the watchers, we are with you on that.
    The accountability actions addressed those things for which 
those commanders were--they had complete ownership. They had 
the responsibility, accountability, and authority to act to 
avoid the series of decisions that resulted in either a 
collision or an assignment of a ship that wasn't ready to do 
its mission. And so each one of those was appreciated on its 
individual merit, and I strongly believe that the 
accountability measures were appropriate.
    Mr. Wilson. And these are being monitored still, the 
deficiencies in the requests made?
    Admiral Richardson. Yes, sir, it is part of a constant 
dialogue there, particularly with the 7th Fleet--the new 7th 
Fleet leadership in place.
    Mr. Wilson. Thank you. We now proceed to Ranking Member 
Bordallo of Guam.
    Ms. Bordallo. Mr. Secretary, I strongly support the 
national strategy's intent to keep our forces forward deployed. 
In the Navy's two reviews, as well as previous discussions I 
have had with Navy leadership, concerns have been raised about 
the gaps in the capability and the capacity to support ship 
repair requirements in the Western Pacific. As I mentioned in 
my opening statement, the Comprehensive Review specifically 
identifies this as a real challenge for SRF [Ship Repair 
Facility] Yokosuka, Japan.
    So with that concern in mind, can you please discuss what 
additional options are being considered to meet ship 
maintenance requirements for Navy ships operating in the 
Western Pacific? Whether we are discussing peacetime or a 
potential contingency, it seems to me that a ship repair 
facility on sovereign U.S. soil in the Western Pacific--and we 
all know where that is--would be capable of supporting depot-
level maintenance, and this would be an ideal solution to meet 
ship maintenance requirements while keeping them forward in the 
region. So what options, Mr. Secretary, are you discussing to 
meet these needs?
    Secretary Spencer. Congresswoman Bordallo, thank you. We 
are looking at all options at all times. You and I met earlier, 
I think last week. The fact of the matter is, if, in fact, we 
pass the continuing resolution and hopefully get to a budget, 
the numbers that we have going into 2018 are going to support 
some healthy additions to ship maintenance. At all times, we 
are going to look at the business opportunities available, the 
best deal for the American taxpayer. If you look at the Western 
Pacific and you look at how we go about repairing, we do have 
Japan, we do have dockside, robust dockside abilities in Guam. 
We have Hawaii, and then we move to the West Coast for big, 
deep-dive maintenance availabilities.
    We will on an ongoing basis look for any and all 
capabilities as we go forward, because we are going to be using 
them, if, in fact, we receive the funding to do so.
    Ms. Bordallo. Well, thank you, Mr. Secretary, and I 
appreciate your comments during this hearing and your 
leadership in ensuring adequate ship repair capabilities, 
especially in the Pacific, necessary to maintain the fleet and 
keep it forward deployed.
    I also appreciate our meeting last week, as you mentioned, 
and your commitment to working with me as you review options 
for ship repair in the Western Pacific that makes strategic and 
operational sense. I hope that we can continue our positive 
dialogue and work on a solution that supports American jobs and 
our readiness in the region.
    And I have a second question for you, also, Mr. Secretary. 
Or, no, this one is for Admiral Richardson. It is my 
understanding that forward-deployed naval forces [FDNF] had 
critical operational demands that took the USS Fitzgerald and 
the USS John S. McCain away from dedicated maintenance, 
training, and certification periods. Now, can you please 
describe steps that the Navy has taken to ensure that this is 
not continuing to occur with the remaining FDNF ships? In other 
words, how are we ensuring FDNF ships receive the necessary 
maintenance and training to set their crews up for success?
    Admiral Richardson. Yes, ma'am. The establishment of that 
force generation model in Japan--the fact that we are doing 
rigorous scheduling, not only for maintenance, but also to 
schedule training and certification events--enforced by the 
fleet commander before they are assigned to missions, that is 
essentially the--our side--the supply side of the supply-demand 
tension.
    And so that--adhering to that in a rigorous way is really 
the way that we guarantee that. And then as we look through the 
command-and-control structure, in a comprehensive way with both 
the CR and the Strategic Review, establishing sort of an 
advocate for training and certification out there will be part 
of that.
    Ms. Bordallo. And, Admiral, you can assure that this is 
occurring right as we speak?
    Admiral Richardson. It is. Yes, ma'am.
    Ms. Bordallo. Thank you. And I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Congresswoman Bordallo. And 
myself having toured the Guam Naval Shipyard, I share your 
appreciation of the assets there.
    We now proceed to Chairman Rob Wittman of Virginia.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks 
again for joining us today.
    I think you will agree with me in that we need to make sure 
that our junior surface Navy officers need time to excel in 
their trades. Today, though, in the Navy, if you look at our 
surface warfare officers, we see a path for them to be 
generalists, not one that allows them to be specialists, allows 
them to really get down into that specific area of skill that 
they need across all these different areas of ship operations 
that have become increasingly more complex.
    We see the aviation community that looks into creating 
those specialists. We see foreign navies doing the same thing. 
We are in this increasingly complex and technologically 
challenging environment. Specialties are things that are 
encouraged.
    Is it time for the Navy to adopt best practices for deck 
and engineering specialists development within our junior 
officer corps within the Navy?
    Admiral Richardson. Sir, as you can appreciate, that model, 
which is largely used by the Royal Navy, is always on the table 
and being assessed and considered. I look forward to having a 
more robust conversation with you about some of these. The 
gives and takes are complicated.
    But in terms of the approach that the U.S. Navy has taken 
throughout its history, we have seen that--to your point, 
providing adequate time to learn the trade of being the officer 
of the deck and driving a U.S. warship, it requires time and 
rigor in that training cycle. And there is also value to 
understanding the engineering department and the rest of the 
ship, as well. And so there is always a balance there. I look 
forward to discussing that with you more.
    Mr. Wittman. Great. And that is a great lead-in to the next 
question. And that is, as our junior officers come to the 
fleet, as that new ensign comes to the fleet, and they are 
faced with standing that watch, with being the junior officer 
on the deck and increasingly more complex responsibilities 
there, the question always becomes, when they come to the 
fleet, what experience do they come with? Do they have time at 
sea experience?
    I know my son, who is a merchant mariner, has spent years 
and years and years, thousands of hours of sea time and many, 
many courses, to actually get a certification so that he can 
captain a ship at sea. The question then becomes, should we 
have the same component for those young ensigns that are put 
aboard a grey hull and the experience that they have. Should 
they not maybe spend a year at sea?
    I understand you can't go there immediately, but should 
they not maybe spend a year at sea and get their third mate's 
license so that when they get to the fleet, they are 
extraordinarily well versed and experienced with that?
    Admiral Richardson. Yes, sir, again, I think we have to 
really spend a long time on problem definition with respect to 
this career path. As you can appreciate, driving a complex U.S. 
Navy warship is much more complicated than driving a merchant 
ship. But again, I think we are in violent agreement that that 
training and career path needs some adjustment, some rugged 
enhancements. Those have all been part of the recommendations 
in the Comprehensive Review and the Strategic Review is in 
agreement with that. And so I think that moving through those 
recommendations, as proposed right now, will get at your 
concerns, which I share.
    Mr. Wittman. Very good. One other additional element, too, 
as we look at forward-deployed naval forces, and we look at the 
Navy's directive to say those ships should return back 
stateside every 7 to 10 years for the deep-dive maintenance to 
make sure that their material readiness is where it needs to 
be--because these are the ships, tip of the spear, they get 
pushed the hardest, they are out there, you know, really on 
point constantly--do you believe that situation like we had 
with the McCain, where it has been there for 20 years without 
coming back stateside--and listen, I understand the things that 
go on at Yokosuka. But there is a limited capability in really 
the deep-dive maintenance that is being done there.
    Do you think that the maintenance cycles of FDNF ships 
coming back stateside should be looked at and getting back to a 
7- to 10-year cycle?
    Admiral Richardson. Sir, we already did that. Even before 
these incidents, we had already made the decision to return to 
that cycle, and so I could give you the specific schedule of 
those FDNF ships that will be returning stateside, and that 
rotation--it is a bit classified, but I will give it to you in 
the appropriate setting. So we have already decided that trying 
to do all the maintenance in forward-deployed naval forces in 
Yokosuka or Sasebo, it is not a long-term solution. So we will 
be bringing those ships back. Our goal is to get to an 8-year 
cycle.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Wilson. And thank you, Chairman Wittman. We now proceed 
to Ranking Member Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman. Secretary Spencer, 
[inaudible] as not optimal--did you hear that?
    Secretary Spencer. I believe I did.
    Mr. Courtney [continuing]. Which did not hear as optimal 
and contributed to the readiness issues in the 7th Fleet. Why 
are you seeking to change that structure? And why do you need 
Congress's help?
    Secretary Spencer. Congressman, we just had our first--I 
call it a solarium, where we brought together both our four-
stars, some three-stars, some gray beards, and sit down and 
looked at the wiring diagram for command and control in the 
Navy, specifically the Pacific Fleet and the European theater.
    We had two goals in mind in this first meeting, was to 
basically assess what we had, guide ourselves by our goal 
should be that the commander of a ship should have a clear line 
to know what he or she is reporting to and whom she or he is 
reporting to. We should also have a clear line of sight from 
command on down as to where responsibilities lie.
    When we look at the chart, we have not come to final 
conclusions yet, but we are in an iterative process which will 
have our first step forthcoming soon. We wanted to clean up 
exactly what you were talking about, which is the ability for 
us to act in the most efficient manner possible with the most 
direct lines of communication.
    Mr. Courtney. And why do you need Congress to help you with 
that?
    Secretary Spencer. Well, we have--in the case of the 
Pacific Fleet, we had an issue that I believe is going to be 
ameliorated if, in fact, we do away with what used to be known 
as the Inouye amendment. And again, we have a clear direct 
command and control as to what the line-of-sight is for 
responsibility and efficiency.
    Mr. Courtney. Thank you. And again, just for the--to be 
clear, that amendment is not really--well, that amendment 
actually intrudes by Congress in terms of how the command-and-
control structure is designed. If that amendment was removed, 
we actually step back, Congress steps back from this issue and 
really allows the Navy to then move forward with a more optimal 
arrangement, which I think, again, both reports really 
identified that as a way to move forward and to help untangle 
the conflicts. Is that correct?
    Secretary Spencer. We are in agreement, yes.
    Mr. Courtney. And, Admiral, would you agree with that?
    Admiral Richardson. Sir, I would. To me, it is all about 
standards. And the way that this amendment is structured, it 
allows really two standards to emerge. And we need to have one 
single standard of excellence for our Navy for these matters.
    Mr. Courtney. Great, thank you. Admiral, the Government 
Accountability Office reviewed the certifications for the ships 
involved in the 2017 mishaps and found that many had expired 
and remained expired for months or years. The McCain had 7 of 
22 certifications expired, some for more than 2 years. The 
Fitzgerald had 15 of 22 certifications expired, including a 
basic seamanship certification, which had been expired for 
nearly a year.
    Admiral, what is your plan to bring these ships back into 
compliance with their basic certification requirements? And I 
know that you canceled all existing risk mitigation plans and 
required ships to resubmit more comprehensive plans at a higher 
command than before. What is the status of developing and 
improving these new plans? And how are the forward-deployed 
ships treating these risks differently than before?
    Admiral Richardson. Well, sir, the immediate actions are 
complete, which was to re-baseline all ships except for those 
in deep maintenance in Yokosuka. And so those ready for sea 
assessments have been done on all cruisers and destroyers in 
the forward-deployed naval forces in Japan. That includes the 
certification for every ship that is underway assigned to a 
mission to be certified to do those missions, and that is being 
done at the 7th Fleet command level.
    And then there is sort of the longer term plan to go 
through sort of a longer, more detailed, holistic certification 
for each of these ships, and that is being done in a priority 
basis, as well.
    Mr. Courtney. So what we had before was a device, a risk 
mitigation plan which really sort of lost its meaning, because 
of, again, just the repeated--go ahead.
    Admiral Richardson. Yes, sir, this is the exact definition 
of normalization of deviance, is that what started from a risk 
mitigation, hey, we know you can't get this done, but here are 
the mitigating measures we will take, we will maybe put this 
expertise onboard and we will re-schedule that, that devolved 
down to really almost a rubber stamp, clearly articulated in 
Admiral Davidson's Comprehensive Review.
    And so part of this matter that we talked about with 
respect to the Inouye amendment is having that advocate for 
force generation and the training and certification standards 
that can really--you know, whose sole function is to maintain 
those standards, that installs a firebreak, if you will, from 
allowing this degradation to happen again.
    Mr. Wilson. And thank you, Congressman Courtney. We now 
proceed to Congressman Duncan Hunter of California.
    Mr. Hunter. Thank you, Mr. Chairman. I am going to tie in 
with what Chairman Wittman's kind of line of questioning was, 
and it is specific, because in San Diego we had the LCS 
[littoral combat ship] there in the beginning. And I went on--
it was like 6 years ago or so, I went to the LCS simulator, if 
you will, right there by 32nd Street, and it is the bridge of 
an LCS, and it is a virtual environment. You can walk around on 
it. You can see all the way around. I think it moves even. The 
water looks like it moves. It is a fairly realistic set-up, and 
it is cheap, because it is not a real boat that is underway.
    I have also seen the LCS courseware, where it is game-based 
learning. I think it is immersive virtual ship environment 
learning, as well. I think you use it for like the engine plans 
and one of the LCSes. I don't remember which one. But it works. 
It works. It is game-based learning. It is new. All the kids do 
it. They know how to play an Xbox. They know how to do this.
    So specifically then, in light of the value of the LCS 
training program, how do you plan on leveraging that type of 
thing where you don't have to go out for a year at sea, you can 
spend 3 weeks on the bridge of a ship, like the one you are 
going to take over, you are going to be on the deck of, and 
when--there were a couple of things--that is my first question. 
How do you plan to leverage that?
    You--Admiral Richardson stated multiple bridge watch 
standers lack the basic level of knowledge on the steering 
control system, in particular the transfer of steering and 
thrust control, et cetera. And with the USS McCain, several 
sailors--I quote again--several sailors on watch during the 
collision with the control over steering were temporarily 
assigned from USS Antietam. So they didn't--they could have 
done a game-based learning scenario on this ship before they 
transferred to the new ship and been at least familiar with 
what they were going to do on the ship, and easily, because it 
is in the cloud or it is on a DVD [digital video disc]. So that 
is my question. I will stop there and let you answer. Thank 
you.
    Admiral Richardson. Sir, if I could, I would just read it 
back to you, the value of simulators in terms of training and 
certifying our sailors. I couldn't agree with you more that 
particularly now with the technology, the degree of realism, 
the fidelity of those simulators is very, very high. And it 
can't take you all the way, as you know from your service, but 
it can take you a lot further than it used to.
    And so with respect to the LCS, which is designed to have 
sort of a blue-gold crew type of an arrangement, you know, 
there is going to be one crew on the ship all the time, and one 
crew in the trainers and simulators. And so we need to make 
those as realistic as possible, as prototypic to the complexity 
of the assignment. So we are all in on that.
    As the Comprehensive Review states, we need to sort of 
spread that philosophy around so that we can move those 
simulators and stand them up in places like Yokosuka, Japan, 
like Sasebo, so that we have got that level of training 
capacity and capability there. And it is much more than just 
the realistic environment. It also allows you to measure your 
performance throughout the game, right? And so it is more than 
just kids playing games. These are--the science behind these 
things, in terms of accelerating learning, has really been 
stunning in the last 10 years. We are leveraging all of that, 
not only in the corrective actions for these incidents, but in 
the training philosophy for the Navy, which falls under the 
title of ready-relevant learning.
    Secretary Spencer. Congressman, I just might add, when it 
comes to how we are going to address training, AI [artificial 
intelligence] is now just beginning to tip our scales. If we 
look at specifically what you are talking about with 
simulators, et cetera, they have the ability and we are 
exploring the application of artificial intelligence, which 
actually would work with the individual people to find 
weaknesses and actually strengthen the areas of weakness.
    You might turn around and ask, you know, what are we 
looking for going forward? I am going to pre-answer a question, 
because it fits right here in the wheelhouse. Between the SRR 
and the CR, we are probably looking for $800 million over the 
FYDP [Future Years Defense Program], and it is primarily in the 
area of schools, the simulators, bridge uniformity, along those 
lines. But it is not a tremendous amount of money in the grand 
scheme of things, but it has great leverage.
    Mr. Hunter. Thank you both. I yield back the balance of my 
time.
    Mr. Wilson. Thank you very much, Congressman Hunter. We now 
proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Mr. Chair. And thank you, 
Secretary Spencer and Admiral Richardson, for being here today.
    I am concerned about the frequency and number of expired 
warfare certifications in the fleet. In instances where a ship 
is required for a mission but lacks the certification for the 
primary mission, what mitigations actions will the Navy take to 
include globally sourcing ships? Do other warfare areas, for 
example, aviation or submarines, allow their platforms to 
deploy following a depot-level repair without certifying 
qualifications and ensuring a minimum level of safety training 
criteria? What steps will the Navy take to ensure basic and 
advanced training are satisfied before they are sourced to 
other defense missions?
    Admiral Richardson. Sir, I will take first stab at that 
question, which really goes back to this force generation model 
and the rigor that needs to be applied to the training and 
certification elements of the force generation schedule. And so 
typically when a ship or an aircraft or any Navy asset, any 
Navy platform comes out of a deep maintenance period, there is 
a workup period where you work up the crew and then you take 
them from basic through intermediate and advanced. That is 
certainly a very formal process for ships stationed in 
continental United States, and they get formally certified 
before they deploy.
    And then with respect to other forward-deployed naval 
forces, both in Bahrain in the Middle East and also in Rota, 
Spain, those models had been adhered to, and we don't see these 
lapsed certifications in those forward-deployed places as we 
did in Japan. And so it really is a matter of rigor. The new 
7th Fleet commander is on that. We are looking at command-and-
control structures to buttress that approach. And that is all 
wrapped into the comprehensive plan going forward. In the 
immediate time, we have taken action to ensure that every ship 
that is underway right now is certified for the missions it is 
conducting.
    Mr. Carbajal. Thank you. Secretary, nothing to add? Well, 
let me ask you a second question. Under the current command-
and-control construct for the Navy surface forces in the 
Pacific, there appears to be an inherent conflict with having a 
single command responsible for both sourcing operational 
requirements and ensuring the proper manning, training, 
equipment of the fleet. What steps is the Navy taking to 
address the conflict? And how can Congress help?
    Admiral Richardson. Sir, as we address the command and 
control, the Comprehensive Review and the Strategic Review are 
in firm agreement that there needs to be a separation to a 
degree--as good a degree as possible--between those responsible 
for training and certifying forces to be ready and then those 
who are responsible for employing those ready forces to meet 
combatant commander requests, demands.
    And so that separation to a single standard of excellence 
is a major goal for both of the reviews and will certainly be 
one of the major achievements going forward. With respect to 
any assistance from the Congress, this Inouye amendment as it 
was called is just one, I would say, artificial seam that 
inhibits from establishing that single standard.
    Mr. Carbajal. Great, thank you very much. I yield back my 
time.
    Mr. Wilson. Thank you, Congressman Carbajal. We now proceed 
to Congressman Bradley Byrne of Alabama.
    Mr. Byrne. Thank you, Mr. Chairman. Gentlemen, good to see 
you. I heard what you said loud and clear about continuing 
resolutions. And you need to know that there are many of us on 
this committee and many of us off the committee who have been 
communicating very directly and very clearly to the leadership 
of the Congress that the use of continuing resolutions to fund 
the government, and particularly the use of continuing 
resolutions to fund the Department of Defense, has got to stop. 
We hear you. And you have many advocates in this room.
    Last week at the Surface Navy Association Symposium, Vice 
Admiral Rowden said the way to avoid collisions like the 
Fitzgerald and McCain is to give our crews more time to train 
and maintain. He offered two options on how to get there--more 
ships or fewer obligations. I think we can all agree that the 
current threat environment is not going to lead to fewer 
obligations. So that means more ships.
    The Navy's requirement and now the statutory requirement 
adopted by Congress and signed by the President is a 355-ship 
fleet. Now, in order for us to help you, we need to know what 
the plan is. We haven't received a new 30-year shipbuilding 
plan under this administration. Can we expect this plan to be 
delivered with the President's budget next month?
    Secretary Spencer. Yes, you can, Congressman.
    Mr. Byrne. Good. The fiscal year 2018 NDAA authorized 13 
ships, which was 5 more than the President's budget requested, 
in large part to ensure we are taking advantage of hot 
production lines across the industrial base to keep acquisition 
efficient and affordable. Does the Navy recognize that without 
careful planning, losses in our industrial base make achieving 
a 355-ship Navy nearly impossible?
    Secretary Spencer. Congressman, we are very much aware of 
this. And I am more than happy to share with you and your 
fellow members the analysis that we have just come through and 
we are putting a dot on it as we speak. There is--as we call 
it--three projections. We can go along on a keep everything 
warm line, which does not get us to 355 within an acceptable 
period of time. We can do a normalized curve, which brings it 
in a little closer, or a very aggressive curve.
    The balancing act that we have to do is to feed our demand 
need and also, to be very frank with you, care for the 
industrial base, because one of the things we are suffering 
right now is the last boom and bust, because we have a number 
of hulls that are coming up in a short period of time for 
decommissioning. And if we can smooth that curve, that would be 
an excellent solution for both the industrial base and for us. 
That is all with one caveat. If, in fact, we need ships for 
whatever reason at an expedited rate, we are going to have to 
go there.
    Admiral Richardson. Sir, if I could add onto that----
    Mr. Byrne. Yes, sir.
    Admiral Richardson. When we bring you this plan, it will 
come with some historical perspective, really sort of going 
back to 1955, and tracking our way forward. And it will show 
you the absolutely devastating effect of the peace dividend, if 
you will, on our industrial base, where more than a dozen 
shipyards really shuttered down and leaves us with an 
industrial base that has far less capacity now. So we need to 
really protect that treasure with everything we can.
    Mr. Byrne. Well, I think both of you know this, but when we 
stood up a shipyard in Mobile, I was the chancellor of post-
secondary education for the State. And we had the entity under 
my direction that actually had to create the workforce for the 
shipyard in Mobile. And we had the luxury of time, a whole lot 
of time, and we had a recession, where we had a lot of people 
laid off.
    We have exactly the opposite situation right now. We do not 
have the luxury of time, and we have a very active economy, 
where people with those sorts of skills, if we lay them off, 
they can go anywhere and get a job, and it is very hard both to 
get--train the people that you need to replace them and the 
people you train will not have the experience that the people 
they are replacing had, which means you are going to have a 
less efficient production schedule, and the ships are going to 
cost more, which we all don't want the ships to cost more.
    So I just plead with you--and I know you hear me, because I 
have said this to you so many times--please work with us on 
this. I just want you to know that as you work to implement the 
priorities of the Trump administration, we expect a larger 
investment in shipbuilding to relieve the stress in our current 
fleet, which we know has contributed to some of these issues. 
We in Congress are your willing partnership, and we want to 
help in growing the fleet. However, we can't do that unless we 
have a signal from you on what you need. I understand you are 
about to get there. So I understand the roadmap is forthcoming. 
I look forward to having some time with you so I can understand 
what I can do and what we can do together to grow the fleet.
    And I yield back.
    Mr. Wilson. Thank you, Congressman Byrne. We now proceed to 
Congresswoman Stephanie Murphy of Florida.
    Mrs. Murphy. Secretary Spencer, Admiral Richardson, thank 
you for your testimony here today. First, I want to associate 
myself with the comments of some of my colleagues that we must 
do all that we can to ensure that the tragic accidents--that 
the tragic and avoidable incidents that we experienced this 
year never happen again.
    And specifically, I would like to associate myself with the 
remarks by Bradley regarding the continuing resolutions. I have 
heard you and your colleagues loud and clear about the 
deleterious effect of CRs on the Navy's ability to ensure 
readiness. And I hope you know that we will continue to 
advocate to ensure that you have a predictable funding stream 
for our military so that you can make the investments that are 
needed to ensure readiness and the safety of our sailors.
    Just by way of introduction, my district is in central 
Florida, and it is home to Team Orlando, which is a vibrant 
modeling, simulation, and training community centered around 
the Navy's NAWCTSD [Naval Air Warfare Center Training Systems 
Division]. I have had the opportunity to see demonstrations of 
the same virtual game-based training systems for specific 
workstation requirements that Mr. Hunter had described.
    There are several companies located in my district in 
Orlando that offer innovative training solutions like this, and 
I am just very impressed by the technology. As Mr. Hunter had 
said, these immersive virtual training systems can either be 
deployed in schoolhouses or be operated on a sailor's laptop or 
another device.
    So I wanted to ask you, do you see value in virtual 
training technologies that can help ensure that sailors in 
operational environments are maintaining their qualifications 
and routinely assessed while deployed? And also, to follow up--
and another question on that is, what is the Navy doing 
urgently in 2018 to improve training deficiencies in 
navigation, emergency procedures, and collision avoidance in 
highly trafficked areas?
    Secretary Spencer. I will take the first part of your 
question, Congresswoman. As far as it comes to virtual reality 
training and the technological advances that are available to 
us, we are looking at every single possible avenue. Having just 
signed out travel authority last quarter for close to 500 
members of the Navy to go down to Orlando and participate in 
that event down there, I think that shows our level of 
commitment to the area.
    In my initial testimony, in confirmation, I will reiterate 
again that technology is going to be our force multiplier, in 
every single aspect of how we do business, and training is one 
that we will benefit from.
    Mrs. Murphy. Great, thank you.
    Admiral Richardson. Ma'am, I will pile in on part two of 
your question. With respect to just immediate actions to 
address the concerns you had regarding operation in heavily 
trafficked areas, we have revised the formality of the 
procedures for ships approaching within 2 nautical miles to 
preserve decision-making time of the commanding officers to 
assess that heavily trafficked area. We have changed the 
reporting criteria regarding propulsion, navigation, and 
steering types of systems so that we have a more firm control 
over--and a reassurance that those systems operate properly. 
That also includes damage control systems.
    And there is a whole list that I could go down of measures 
that we have taken, automatic identification system [AIS], the 
rules governing when to transmit on that, so you are visible to 
other ships in the area, have changed for our surface ships 
operating in those areas, and we are going to integrate that 
AIS system more seamlessly into the rest of the gear that we 
use to establish situational awareness in those types of 
situations. So a whole host of measures have already been 
taken.
    Mrs. Murphy. And specifically, have you expedited any 
training--additional training or other ways in which to make 
the sailors more prepared?
    Admiral Richardson. To date, because it has been such a 
short time, a lot of that has been sort of onboard the ships. 
So we have just sort of mandated--and the COs [commanding 
officers] didn't really need to be told, right? They knew what 
to get after.
    In the longer term, as we look to expand some of these 
types of technologies and enhance them more into the fleet 
concentration areas around the world, we are certainly going to 
be going to these types of simulation and performance measuring 
types of systems to get us up to speed as fast as possible.
    Mrs. Murphy. Thank you. And I yield back.
    Mr. Wilson. And thank you, Congresswoman Murphy. We now 
proceed to Congressman Dr. Ralph Abraham of Louisiana.
    Dr. Abraham. Thank you, Mr. Chairman. And thank you for 
being here. And I appreciate the words of the authority 
responsibility, because we all know that certainly in the 
military or business, you can designate authority, but never 
responsibility. So I appreciate you gentlemen being here.
    And, Mr. Secretary, the analogy to the Mayo Clinic with the 
lead surgeon I think is a good comparison as to how things go. 
We understand certainly in hazard mitigation and risk 
management that there is an error chain usually if you have an 
incident, a mishap, or an accident. And if any link of that 
chain is broken, then that error or that accident does not 
happen. We all are familiar with the Swiss cheese model, with 
the holes lining up, so to speak.
    And unfortunately, in these incidents that we are here to 
talk about, the hole did align, and we understand. So I assume 
and I hope that the culture of the Navy, Admiral, is that if 
any member of that crew sees something and he or she says, 
``Knock it off,'' or some phraseology, that everybody takes a 
step back and re-evaluates where they are.
    Admiral Richardson. Sir, absolutely. And you are familiar 
with the investigations and the literature on these types of 
major events. They are the accumulation of a lot of small 
errors that just sort of line up in a very unpredictable way, 
whether that be Deepwater Horizon, Challenger, an operating 
room, and so that is exactly the philosophy that we are taking.
    Dr. Abraham. And I will associate my comments with my good 
friend, Bradley, over here as far as the funding. We certainly 
on HASC [House Armed Services Committee], but I can say most if 
not all Members of Congress understand the severe shortage that 
you are faced with. And when we are told and we understand that 
in last year, 2016, I mean, 2017, that we had almost four times 
the number of training accidents as we did have deaths in 
combat, there is something wrong there. And we understand that 
does go back to certification and training, and that type of 
issue.
    So I just want to make a statement that, again, I 
appreciate your forthrightness of coming forward, giving us 
direct answers to direct questions, and we certainly understand 
what the continuing CRs does to the training or, therefore, 
lack of training in your wheelhouse. So thank you very much. 
Mr. Chairman, I yield back.
    Mr. Wilson. And thank you very much, Dr. Abraham. We now 
proceed to Congressman Ro Khanna of California.
    Mr. Khanna. Thank you, Mr. Chair. Mr. Secretary, Admiral 
Richardson, thank you for your service. My question concerns 
the Aegis system. And I wanted your assessment of how effective 
that currently is in the boost phase of an intercontinental 
ballistic missile in intercepting that, and how much assurance 
the American public could have in that technology currently.
    Admiral Richardson. Well, first, let me say foremost that 
the Aegis Combat System is highly effective in the ballistic 
missile defense role. And so we have tuned it for that role. We 
continue to improve it for that role, not only in the combat 
system, but also the interceptors. And so that is a program, a 
capability that is on a path of continuous improvement.
    You asked specifically about the boost phase. Well, I will 
tell you, just from a geometry standpoint, I have got to say 
that that is a very difficult part of the kill chain, if you 
will, to get after. The missile that you are trying to hit does 
not spend a lot of time in the boost phase. Depending upon 
where it is launched, just achieving the geometry to get any 
type of an interceptor to intercept that missile during its 
boost phase is difficult.
    And so it takes a very sophisticated combination of sensors 
to get it instantaneously and then a highly capable vehicle to 
intercept it. So we are working towards that capability, and 
the Aegis system will naturally be a big part of that.
    Mr. Khanna. So right now, is there any capability of 
getting a missile that is launched at any phase, other than the 
ground interceptors, where right now there is--with the Aegis 
system?
    Admiral Richardson. Absolutely. Throughout--particularly 
sort of in the terminal phases where--exoatmospheric phases 
where those do best, if we have got the opportunity, there is 
nothing that really precludes us from a system standpoint of 
getting the boost phases, just physics. You know, it is just 
time and distance, is you have got to be very, very close and 
very, very fast to catch it in that phase.
    Mr. Khanna. Would you then--in Congress, if we were 
prioritizing funding more of the ground interceptors with the 
hope of preventing an intercontinental ballistic missile that 
was about to hit or if we were saying let's fund more the 
development of the Aegis system to prevent an intercontinental 
ballistic missile that could hit the United States, what would 
you recommend? And how difficult would it be to have a system 
that would have a very high probability of success?
    Admiral Richardson. Well, again, the probability of success 
for intercept is pretty high. And in terms of the approach to 
missile defense, it really is a comprehensive approach that you 
want to take without singling in on any specific capability. So 
I am reluctant to choose between one system or another. They 
are all appropriate in different applications.
    Mr. Khanna. We make tough choices. You make tough choices 
all the time. I mean, in terms of--if you had resources, how 
would you allocate them or prioritize them?
    Admiral Richardson. I think that the program that is put 
forward is the best balance and assessment of the comprehensive 
approach.
    Mr. Khanna. Thank you. Any further? Thank you. Yield back.
    Mr. Wilson. Thank you, Congressman Khanna. We now proceed 
to Congressman Mike Gallagher of Wisconsin.
    Mr. Gallagher. Thank you, Mr. Chairman. Gentlemen, thank 
you both for your service and for being with us today.
    CNO, you said something very interesting that I think was 
not in your written testimony, but was in your oral testimony 
about how the lack of adequate funding has affected the Navy, 
and something about a scale of 1 to 10. If you wouldn't mind 
sort of repeating that, because I think it is a particularly 
important point for us to hear.
    Admiral Richardson. Sir, I would be happy to repeat that. I 
think--I really talked about--the toxic and corrosive effect of 
9 years of continuing resolutions and the Budget Control Act. 
And I wanted to highlight that there is plenty of work that we 
are responsible for, and we are going to get after that, but 
the absence of stable and adequate funding for defense makes 
everything that we are doing to correct this system harder, 
much harder. And on a scale of 1 to 10, the importance of 
stable and adequate funding scores an 11.
    Mr. Gallagher. That is a really critical point. I salute 
you for bringing that to light, and I hope we can echo that, 
particularly in the context of negotiations we are having right 
now. And I would say, Mr. Secretary, you referenced sort of a 
solarium process underway, which of course is a model for 
competitive review of strategy, but we sort of already 
legislated that review through three outside assessments of 
what the future fleet needs to look like. I am heartened to 
hear that we are going to get the 30-year shipbuilding plan 
soon.
    So I do think we need sort of a re-think of our 
communications strategy, and start from the beginning, making 
that strategy first case to the American people for why 
seapower is so critical to our national security in the first 
place, because it strikes me, as someone who has only been here 
for a year, that we keep making the same case, and for whatever 
reason, it is not working.
    So I just would ask you--and maybe this is a dumb question, 
Mr. Secretary--what is kind of your elevator pitch to the 
American people? Describe to me, if you will, what the purpose 
of the Navy is today and in the near future?
    Secretary Spencer. Well, the purpose of the Navy, 
Congressman, is it is your forward-deployed force, your primary 
forward-deployed force, the most limber and flexible force that 
you have for a multiple of things, but primarily which comes to 
the top issues would be keeping the arteries of commerce open 
on the open seas, the presence factor of American power around 
the globe, keeping peace through presence, and then when 
needed, the ability to provide the kinetic actions that we need 
to suppress and/or conquer our foes.
    Mr. Gallagher. I appreciate it.
    Secretary Spencer. And through that, you need platforms, 
whether on the sea, under the sea, or in the air, and that is 
where Navy has all three.
    Mr. Gallagher. And can you both give me a sense of, how do 
you think about conveying that purpose to the American public, 
to the fleet, to our allies, and our potential adversaries? And 
is that messaging coordinated? Is it aligned? Who is 
responsible? What is the process for strategic communications, 
if you will?
    Secretary Spencer. Well, I think the CNO and I are aligned 
in this. I flash back to when I was going through 
confirmation--and CNO, your strategy for naval forces going 
forward did highlight it--it is out there in the public. 
Obviously, what we are hearing, Congressman, is we have to do 
it in a better manner. But it is a lockstep message which I 
just presented to you with the top three points.
    Admiral Richardson. Sir, if I could just add, the President 
has just released his National Security Strategy. The National 
Defense Strategy is imminent. And right on the heels of that 
will be the military strategy and a maritime strategy. And so 
with this issuance of strategic documents and--you know, and 
the sort of tiering of those, I would anticipate a vigorous 
strategic communications program going forward as we put 
together and release the new maritime strategy.
    Mr. Gallagher. That is great to hear. And I know there has 
been some controversy about sort of the defense guidance that 
went out saying, you know, err on the side of silence. I just 
would personally like to say, I think that is a mistake in this 
case. I understand that loose lips can sink ships, but non-
existent strategic communications can sink entire navies. And 
we need to do a better job of making that case to the American 
people.
    And it is a partnership between us and between you, but you 
have the benefit of having the trust of the American people and 
a high approval rating that at times Congress does not. So we 
could really use your help in that regard.
    Secretary Spencer. Duly noted.
    Mr. Gallagher. Thank you, Mr. Secretary.
    Admiral Richardson. Sir, I appreciate your help there and 
your pushing us in this regard. And we will go as far as we can 
up to the point where the information we are providing provides 
information that the enemy can use against us. I mean, that is 
the only point that we will just have to stop.
    Mr. Gallagher. I totally understand that. I have 16 
seconds. If I could quickly ask, Secretary Spencer, do you--how 
do you exercise oversight of the Navy and Marine Corps in their 
planning, programming, and budgeting execution activities? In 
other words, how do you ensure that the budgets of the Navy and 
Marine Corps are a reflection of sort of an integrated vision 
of American seapower?
    Secretary Spencer. That is one of my sole jobs with title 
10, when it comes to the budgeting plan. What we look for going 
forward in this last cycle, which was my first cycle, was the 
overlaying needs, overlaying plan, and then overlaying 
strategy, and funding to that strategy, which is what we have 
done this last time around.
    Mr. Gallagher. Well, thank you, both, gentlemen. And, 
Secretary, thank your wife, as well, for signing up for this 
assignment. So----
    Mr. Wilson. And thank you, Congressman Gallagher, 
particularly with your combat background and experience. We 
appreciate your insight.
    Congressman Don McEachin of Virginia.
    Mr. McEachin. Thank you, Mr. Chairman. Mr. Secretary and 
Admiral, thank you both for being here. We have already spoken 
a little bit today about the fact that it is now a national 
policy to have not fewer than 355 battle force ships. Am I 
correct in assuming that if we make that progress, that would 
at least partially relieve the pressures that we have discussed 
here today?
    I am under the assumption that being able to distribute the 
same commitments across a larger fleet would help. Am I under 
the right assumption?
    Admiral Richardson. That is absolutely correct, sir.
    Mr. McEachin. All right. Pending the addition of the actual 
new ships to the Navy, are there steps that the Congress can 
take, recognizing the resource constraints under which we 
operate and the need to continue investing in many, many 
priorities aside from defense, that would demonstrate the 
seriousness of our commitment to 355 ships in such a way that 
pressures were relieved on the front end? In other words, can 
we make things easier by giving you greater certainty that help 
is on the way?
    Secretary Spencer. Most definitely, Congressman. If we look 
at shipbuilding in particular, the conversations that we have 
with the industrial base, we are looking to make sure they are 
the most competitive, lowest cost provider with highest quality 
and the quickest manner possible. We turned around and asked 
them, where are the capital investments that you are making in 
your yards to make you competitive and to provide a product in 
the parameters that I just presented to you? And they turn 
around and say, well, you give me the signal that there is a 
consistency to fund three, four, five, seven ships, I will make 
that commensurate investment.
    And that is where--when I talk about the fact that we have 
to be partnership with industry, that is exactly what they are 
looking for, and that is exactly how you could help us, is to 
provide us the ability to send that signal or you send it 
directly that, yes, this is where we want to go and this is 
what our goal will be.
    Admiral Richardson. Sir, if I could add to that----
    Mr. McEachin. Please.
    Admiral Richardson. In terms of that assurance, right now 
as we speak, we have about 400,000 sailors and 180,000 Navy 
civilians looking at their watch wondering if the government is 
going to shut down and they are going to get paid.
    Mr. McEachin. We do understand that. I thank you both. And, 
Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congressman McEachin. We now proceed 
to Congresswoman Colleen Hanabusa of Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chairman. Thank you for being 
here, to both the Secretary as well as the CNO. I do want to 
say something and make it very clear for the record.
    Senator Inouye was not one of us, normal kind of person. He 
is, of course, the recipient of the Medal of Honor, the highest 
award that can be presented in gratitude to anyone who wears 
the uniforms that you do. In addition, he is a recipient of the 
Congressional Gold Medal and the Presidential Medal of Freedom.
    He, like me, we represent the State of Hawaii, and of 
course, we are home to the Pacific Command. And as you know, 
their AOR [area of responsibility] is almost 55 percent of the 
Earth's surface. I am a strong advocate--and I say this to the 
people in the Army, to their chagrin--that the Pacific is an 
air and sea power, but more accurately a sea power. And 
therefore, I am very concerned when we sit here and we start to 
say, well, you know, maybe we need--and I don't disagree with a 
standard of excellence, a single standard of excellence. 
However, I would like to impress upon you that the Pacific is 
different.
    Where these accidents occurred, especially the McCain, is 
in a very busy area, because when we were briefed earlier, what 
we are faced with is a lot of commercial traffic, as well. It 
is not like during World War II when it was just basically the 
military ships going back and forth. It is the busiest 
commercial trade zones in the world.
    Having said that, Admiral Richardson, in your testimony, 
you said, looking back to 2017 was a year of triumph and 
tragedy for our Navy. We consistently forward deployed more 
than 60,000 sailors and 95 ships and submarines around the 
globe. So does that mean we only had 95 of our 280-some-odd 
ships, a far cry from the 355 or President Obama's 318? Is that 
what you are saying in that statement, we only had 95 deployed?
    Admiral Richardson. Consistently at any one day we had 95 
deployed, so that is about--more than a third of your battle 
force. And so it goes back to this training and certification 
cycle that we are on. Those are ships that are on mission, and 
the others are in maintenance and training, getting ready to go 
on mission, and so that is sort of the ratios that you deal 
with when you are talking about maintaining a force forward 
deployed.
    Ms. Hanabusa. So the Secretary had a statement that was 
very interesting, that the Strategic Readiness Review team's 
assessment determined that today's readiness deficiencies--and 
I assume this also talks about Fitzgerald, McCain, and the 
other two that resulted with no physical injury, to our 
benefit--are not traceable to any single policy or leadership 
decision, but rather the cumulative effect of well-meaning 
decisions that were designed to achieve short-term operational 
goals.
    I read in one of these reports that the problem was that 
actually those of you in the Pentagon would make decisions that 
we have to take action, and you would basically send it down to 
the chain of command, and whether they were adequate or not, 
the problem with maybe even the Pacific Fleet or PACOM [U.S. 
Pacific Command] and all of our sailors is that they serve. And 
they probably were under adverse circumstances to do that. Was 
that a correct statement, Mr. Secretary?
    Secretary Spencer. The Navy-Marine Corps team, much like 
our other sister services, are organizations that are biased 
for action, and that is what you want from uniformed people. 
What we have to find is that fine balance between when the 
alarm goes off in the barn, running out the door, and making 
sure that you are prepared to do the mission you are doing.
    Ms. Hanabusa. And I am going to be running out of time, but 
I do wish that you would consider one thing. I believe the 
Pacific is different than the European theater. It is 
different. And the reason why I feel that Senator probably put 
in what you are calling the Inouye amendment is to ensure that 
the difference of that which is the Pacific would become 
foremost in everyone's mind.
    I also would like you to also take more responsibility that 
the McCain and Fitzgerald were basically 20 years old and the 
training that goes on those ships and the fact that they are in 
Yokosuka and not being maintained like everything else is 
really a function of, I think, higher up decisions than what 
you are concerned with.
    So I think this amendment that you are taking issue with 
probably is a good way to protect the people that serve in the 
PACOM AOR. So with that, Mr. Chair, I yield back.
    Mr. Wilson. And thank you, Congresswoman Hanabusa. We now 
proceed to Congressman Donald Norcross of New Jersey.
    Mr. Norcross. Thank you, Chairman and Chairman, for holding 
this hearing, and certainly the ranking members. This is the 
last of many hearings we have held on the tragedies that you 
have talked about and we have heard about today.
    Mr. Secretary and Admiral, good to see you again. When we 
look at what had occurred after the first loss of life and then 
a second accident with a loss of life, I have to say how 
impressed we were after the second one, the reaction we finally 
were getting to try to address some core issues. And it is a 
challenge. There is no question about that.
    And back on November, the Fleet Comprehensive Review made 
58 recommendations, and then after that, December 13th was the 
readiness review that had with it 6 chapters and 23 
recommendations. And I just want to read to you out of the 
December 13th readiness review that talked about the very first 
recommendation on there, condition congressional and executive 
branch leaders to accept that a higher cost and time to achieve 
established readiness standards will mean less presence 
worldwide.
    It appears reading that that somehow you are making a 
choice between safety and lives and readiness. And I know you 
would never suggest that, that you understand that everybody 
under your command is a valuable source for not only our 
country, but the world. But to read that, it seems like you 
have to make a choice, either we are going to be ready or we 
are putting people at risk to lose their lives.
    The recommendations, the vast majority of them I agree 
with, but I just want to give you a chance to address the very 
first recommendation that somehow we can choose safety or 
readiness. And I know you don't mean that. Would you explain 
that?
    Secretary Spencer. Certainly, Congressman. What it does is 
brings up the conversation that it is a mathematical game. You 
cannot expand what you don't have. And we have to make sure 
everyone is attuned to that. And that is our responsibility, 
the CNO and I, to make sure that you all on the funding side 
understand what we are looking at, at this model. That is what 
that recommendation was to do, to get the conversation started.
    Mr. Norcross. Just--because are you suggesting we don't 
understand that?
    Secretary Spencer. No, I am not suggesting you don't 
understand it. I am suggesting that the discussion has to be 
made and has to be understood.
    Mr. Norcross. You make those decisions every day, right?
    Secretary Spencer. Correct.
    Mr. Norcross. Yes.
    Admiral Richardson. Sir, as I interpret that, if I could 
just pile on to what the Secretary is saying, I think as I read 
that, it really strengthens the argument that our 
responsibility is to be both safe and ready before we go out 
and get assigned to a mission. And so it is not a tension 
between safety and readiness, as I see it. We need to cover 
down on those two fundamental obligations before we send that 
ship forward and put it into harm's way.
    Mr. Norcross. You need both, there is no question of that.
    Admiral Richardson. Yes, sir, exactly right.
    Mr. Norcross. So it is our obligation, along with yours, to 
make sure that you have the tools you need at the appropriate 
time.
    Admiral Richardson. It is a shared thing, yes, sir.
    Secretary Spencer. Exactly.
    Mr. Norcross. Thank you. I yield back.
    Mr. Wilson. And thank you very much, Congressman Norcross. 
We now proceed to Congressman Jim Langevin of Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Secretary and 
Admiral Richardson, thank you for being here and for your 
testimony. I would like to just continue on the issue of 
training and readiness.
    So I would like to know if and how the Navy is looking 
towards the expertise and training regimen of the professional 
mariner community in order to adopt best practices and improve 
upon navigation and seamanship and ship-handling skills. For 
example, the United States Maritime Resource Center in my State 
of Rhode Island delivers professional training and continuous 
assessment of these proficiencies, having provided all the 
initial core nautical science and professional maritime 
training for the NOAA [National Oceanic and Atmospheric 
Administration] corps, for example.
    So have you considered utilizing in-depth training and 
assessment from the professional mariner community to fill any 
competency gaps that you might be facing right now?
    Admiral Richardson. Sir, we have a pretty good dialogue 
with that community. And depending upon capacity and really 
technology, there were times where we are using those 
simulators quite a bit. Now if you go just up the road to 
Newport, you know, we will find some pretty state-of-the-art 
trainers that better simulate some of the ships that we are 
training our officers and sailors to drive.
    But in terms of standards and approaches, I would say it is 
a vigorous dialogue. But what I like to do is just make sure 
that I am right, you know, and I am current, and I will get 
back to you, sir.
    Mr. Langevin. Okay, good enough. Thank you. So I also 
understand the Navy plans to continue to conduct in-service 
material inspections every 6 years, as opposed to every 3, 
potentially delaying necessary maintenance. So, you know, I 
think this is one of those areas where we have sung this song 
before, and the Navy's current collision record, unfortunately, 
is part of the result of choices to lessen shoreside training 
that were made over a decade ago.
    And while I support reducing burdensome requirements, I do 
worry that loosening these inspection standards may set us up 
for increased maintenance problems in the future. So is there--
is this a concern for the Navy? And how do you intend to 
mitigate this potential risk?
    Admiral Richardson. Sir, you have brought up the matter of 
inspections. And it is an absolute fundamental part of the way 
going forward. We want to make sure that we are inspecting at 
the proper frequency and that those inspections are useful to 
the crew, particularly the commanding officer, so that he or 
she can make the adjustments and continue to improve their 
crew.
    The Comprehensive Review found that there were something on 
the order of almost 300 inspections in a typical training 
cycle, many of which never spoke to the commanding officer, and 
it is hard, to be honest, to even keep track of those.
    You mentioned INSURV. That is one of the critical ones for 
material readiness. I take those INSURV briefs myself, as does 
the Secretary. We have provided INSURV report to Congress. We 
are moving back to 3-year periodicity, where we have a full-on 
detailed INSURV, and then 3 years later, we will have sort of a 
lighter version of that INSURV that will come back and 
validate, and then have a heavy one again.
    And so also looking at, what do those INSURVs actually 
inspect in terms of articulating the material readiness to 
conduct combat operations? You know, not all deficiencies are 
created equal when it comes to that, and so we are very 
interested and moving forward to make those INSURV inspections, 
both at the proper periodicity and looking at the proper 
things.
    Mr. Langevin. Okay. And on another topic, in order to match 
supply and demand, as noted in your Strategic Readiness Review, 
how do you intend to balance re-establishing a culture of 
safety to support sustainable operations and the long-term goal 
of persistent readiness and the constant need to fill increased 
operational requirements? Will you change your processes as to 
how you assess the readiness of ships and sailors?
    Secretary Spencer. What we have in place, Congressman, as 
you have heard us say before, the systems are in place. We have 
had a deviation from the norm. And the biggest lever that we 
have now is to have the conversations to bring us back towards 
norm.
    I believe--and I will defer to the CNO--that we have a 
pretty good system in place right now that has adjudication--
the ability to bring supply and demand conversation and an 
adjudication process. But again, what we want to make sure is 
everyone is realizing what the true math is with the numbers.
    Mr. Langevin. Okay, well, thank you both for what you are 
doing. We will continue to be on top of this, something I am 
going to follow closely. I know my colleagues and I will all do 
that. But thank you for your service and for being here today. 
We look forward to having you back. Thank you.
    Mr. Wilson. Thank you very much, Congressman Langevin. We 
now conclude with Congresswoman Liz Cheney of Wyoming.
    Ms. Cheney. Thank you very much, Mr. Chairman, and thanks 
for your indulgence and the committee's indulgence in allowing 
me to be here today. Thank you very much, Secretary Spencer and 
Admiral Richardson, for your service and for being here.
    And I don't have a question. I have appreciated very much 
the chance to sit in, to understand where things stand, where 
you are going, but I also want to echo what you have heard a 
number of times here today, and that is that we take very 
seriously--it is not just a situation, as you know, where we 
are in a holding pattern because of the CRs, but we--there are 
many of us, particularly on Armed Services but broadly--who are 
consistently making the point that we are causing damage, that 
every time we vote for another continuing resolution, we are 
doing damage. One more day is more damage, and you have made 
that point very eloquently.
    We are in a situation where we have to make sure that the 
Members of Congress recognize and understand that our 
constitutional obligation is not being fulfilled, so long as we 
don't provide that kind of stable and sufficient funding that 
you have discussed.
    We have passed--as you well know--the National Defense 
Authorization Act and the Appropriations Act through the House. 
The Senate has passed the authorization, but we have got to get 
the appropriations passed through the Senate.
    And I would just say in closing that one of the things that 
has become very clear in my short time here is how important it 
is we remind our colleagues that we cannot treat defense 
spending the way that we treat every other part of the budget 
and every other part of the appropriations process. But we have 
got to recognize that if we fail to get this right, and if we 
fail to get the resources that our military needs to defend and 
protect us, it doesn't matter how important we think tax cuts 
are, it doesn't matter how important we think health reform is, 
it doesn't matter how important any of the other matters we 
deal with are, if we fail to get this fundamental issue right, 
then none of those other things will matter.
    And so we are very grateful, I am very grateful for your 
being very frank and direct. We urge you to continue to do 
that. And we are continuing to fight here. We are going to need 
some very significant reforms to the entire budget process in 
order to be able to get out of the rut that we have been in and 
the real damage that has been done with the continuing 
resolutions for multiple years.
    But I thank very much the committee for its time and I 
thank you very much for your service and for being here.
    Secretary Spencer. If I could respond to the Congresswoman, 
I would be remiss if I didn't put a dot on this, because I know 
many of you in this room have heard this before. But to go on 
the record, we were asked to compute in the United States Navy 
what nine continuing resolutions have cost us. It has cost us 
$4 billion. That is not lost opportunity; that is $4 billion in 
cash in a trash can with lighter fluid, burn it. And that is 
the impact that continuing resolutions have, looking back in a 
totally quantitative basis.
    Ms. Cheney. Yes, well, and I appreciate that very much. And 
of course, in addition to that, we are to the point where we 
are seeing an impact in lives, as well, as you know far better 
than I do.
    And the other piece I would just point out is we are seeing 
an impact in terms of aid to our adversaries. And again, the 
fact that one body appears unable to do its job, the fact that 
the Senate is unable to do its constitutional obligation to 
pass an appropriations bill for defense doesn't absolve the 
House of Representatives from doing its job and its duty. And 
we are very committed to making sure that we do that and we get 
it done and get the United States Senate to pass it, as well, 
so we can get it to the President's desk for signature.
    Thank you very much. And I yield back.
    Mr. Wilson. And thank you very much, Congresswoman Cheney, 
and we particularly appreciate your appreciation of your 
constituents, Secretary and Ms. Spencer, who are here today.
    And Secretary Spencer and Admiral Richardson, as a grateful 
Navy dad myself, thank you for your candid remarks. And thank 
you for following through on trying to address the issue of 
this catastrophic series of events and the Navy's plans to get 
back on course.
    Many of us have visited the Fitzgerald at Yokosuka, Japan, 
and our sympathy has been underscored for the families who have 
been so gruesomely affected. We invite the Navy to return and 
update the subcommittees on your progress in a few months. 
Thank you, Margaret Dean, for your service.
    This hearing is adjourned.
    [Whereupon, at 5:14 p.m., the subcommittees were 
adjourned.]

      
=======================================================================


                            A P P E N D I X

                            January 18, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 18, 2018

=======================================================================

   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 18, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. It is clear that the collisions associated with the 
McCain and Fitzgerald could be directly attributed to insufficient 
force structure. One of the critical missions provided by the 7th Fleet 
is the direct support of Ballistic Missile Defense (BMD). Several years 
ago, the Navy and Missile Defense Agency concluded that there was a 
requirement for 40 ``advanced BMD capable ships.'' It appears to me 
that the combatant commander demand for BMD ships is increasing. Given 
the evolving North Korea threat as well as the increasing worldwide 
ballistic missile threats, do you still believe this number is 
adequate? Are you planning on increasing the number?
    Admiral Richardson. The 2014 update to the 2012 Force Structure 
Assessment (FSA) set the requirement of 40 Advanced BMD capable ships 
(those that can conduct both BMD and conventional air defense 
simultaneously). The 2016 FSA set the overall requirement of 54 
Advanced and Legacy BMD ships. Through Aegis modernization and new 
construction, PB19 puts the Navy on trajectory to achieve the 40 
Advanced BMD ship requirement by 2022 and satisfy the 54 Advanced and 
Legacy BMD ship requirement by the end of the FYDP. Subsequent Force 
Structure Assessments will continue to assess BMD requirements.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. What is the status of the repairs to the USS McCain 
and USS Fitzgerald? When can we expect the repairs to be complete and 
what is the status of the sailors assigned to those ships?
    Admiral Richardson. USS MCCAIN continues to execute her Emergent 
Availability in Yokosuka, Japan, with an estimated Completion Date 
(ECD) of 30 October 2018. Damaged hull removal and damage assessments 
are ongoing, all access cuts in support of equipment removal have been 
made. Nine tanks have been identified with structural damage which will 
be fixed during this availability. Ship remains in discovery phase and 
the anticipated cost and/or expected duration may further adjust if new 
issues are identified.
    USS FITZGERALD continues to execute her Extended Docking Selected 
Restricted Availability (EDSRA) in Pascagoula, Mississippi with an ECD 
of 31 January 2020. Transfer to land completed on 10 February 2018. 
Berthing rip-out, radiological control decontamination, and starboard 
side paint removal are all in progress. Ship remains in discovery phase 
and the anticipated cost and/or expected duration may further adjust if 
new issues are identified.
    In Fall 2017, PACFLT worked with CNSP and BUPERS to reassign all 
FITZGERALD Sailors (less the 50 required for the caretaker crew) to 
other ships in Yokosuka if these Sailors had time remaining on sea duty 
per their career paths. The remaining caretaker crew flew to Pascagoula 
and is currently onboard the ship as repair efforts are taking place. 
NAVSEA will work with BUPERS and CNSP to re-man FITZGERALD in four 
phases in a similar manner to a new-construction ship over the 
remainder of the repair/maintenance/upgrade period.
    No similar crew draw-down was accomplished on JOHN S MCCAIN. The 
crew has remained onboard, and is currently supporting repair efforts 
in Yokosuka. Ensuring the ship regains required FDNF-J manning targets 
once repairs are complete in Fall 2018 remains a key manning priority 
going forward.
    Mrs. Hartzler. I asked Admiral Moran a similar question during the 
September hearing. I take Service Academy nominations very seriously, I 
sometimes see both price and concern in the eyes of the parents. Do you 
feel confident that I can tell these parents that their sons and 
daughters will be okay? That they will have the training and resources 
necessary to carry out the mission and that these systematic failures 
will be rooted out? Or are we sending these sailors into an environment 
where they are put into a position to fail?
    Admiral Richardson. I am confident that our nation's sons and 
daughters are safe while serving on our Navy ships. The officers and 
chiefs that lead our Sailors are responsible for and take care of each 
Sailor, every day. Our Sailors are trained, outfitted, and led to 
succeed on our ships. Since September, we have been conducting Ready 
for Sea Assessments (RFSAs) on our Pacific Fleet ships and have found 
motivated and well-trained crews focused on their mission, executing 
ship handling safely and meeting standards. Further, the Readiness 
Reform Oversight Council, co-chaired by Undersecretary Modly and ADM 
Moran, Vice Chief of Naval Operations, was established earlier this 
year to drive the implementation of the recommendations from the 
Comprehensive Review, Strategic Readiness Review, and other reports to 
ensure we root out those systemic failures for the long term.
    Mrs. Hartzler. I was very shocked to learn that sailors were 
working over 100 hours a week to keep up with current operations. What 
are the manning levels of Navy forces and our forward-deployed forces, 
specifically cruisers and destroyers? Why are our forward-deployed 
ships, the most alert ships in the U.S. Navy, sourced at a manning 
level below the Navy average? Are manning levels artificially inflated 
by the aircraft carrier manning?
    Admiral Richardson. Navy discusses manning using the terms fit and 
fill. The fit percentage is whether the right Sailor, with the right 
skills and experience, is in the right place, compared to mission 
requirements. The fill percentage compares the number of Sailors 
onboard to the number of Sailors authorized for that command. The 
following table reflects FIT/FILL manning levels for Forward Deployed 
Naval Forces, cruisers, destroyers, and aircraft carriers:

 
----------------------------------------------------------------------------------------------------------------
                                                                            FIT (%)               FILL (%)
----------------------------------------------------------------------------------------------------------------
Overall Navy Sea Duty Average                                        89                     95
================================================================================================================
FDNF DDG Average (Japan & Rota)                                      90                     96
----------------------------------------------------------------------------------------------------------------
FDNF DDG Average (Japan only)                                        91                     97
----------------------------------------------------------------------------------------------------------------
CONUS DDG Average                                                    90                     97
================================================================================================================
FDNF CG Average (Japan--No CGs in Rota)                              90                     96
----------------------------------------------------------------------------------------------------------------
CONUS CG Average                                                     91                     98
================================================================================================================
FDNF CVN Average                                                     94                     97
----------------------------------------------------------------------------------------------------------------
CONUS CVN Average                                                    88                     91
----------------------------------------------------------------------------------------------------------------


    1) Forward Deployed Naval Forces (FDNF) are neither manned, nor 
sourced, below Navy average. FDNF unit manning is prioritized above 
CONUS units in the US Fleet Forces Command (USFFC) Manning Control 
Authority-Fleet (MCAF) personnel apportionment algorithm. FDNF Cruiser 
and Destroyer (CRUDES) unit manning currently exceeds the Navy sea duty 
average.
    2) While all FDNF Surface Ship requirements (Japan and Spain) are 
prioritized above CONUS, unplanned losses are harder to replace 
overseas. Overseas screening requirements place an additional 
limitation on Sailor assignability to FDNF units. In March 2017, Navy 
began increasing the quantity of Sailors proposed for FDNF to 
compensate for this overseas assignment limitation.
    3) Aircraft carrier manning levels do not artificially inflate 
aggregate manning levels. Navy metrics to measure manning are Fit 
(rating + paygrade vs requirement) and Fill (all hands onboard vs 
billets authorized) and are applied to each ship individually.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. I am very concerned about the direction that the Navy 
is proceeding in the follow-on contract for Hawaii-based surface 
combatants. We have had a successful collaboration between my island-
based constituents and the Navy for almost 10 years which has resulted 
in stability and predictability for this important industry and in 
readiness gains for Hawaii-based ships. During this period, the Hawaii 
industrial base invested in the management and skills to meet the 
Navy's requirements. As the Ship Repair Association of Hawaii has noted 
to the Naval Sea Systems Command, a Multiple Award Contract will 
require further investment for more management capabilities under a 
contract structure that does not incentivize industry to invest and 
will drive additional costs into the maintenance of our ships. Why, as 
indicated in last week's industry day announcement, is the Navy 
intending to move away from a proven maintenance model for Hawaii to 
one that will introduce risk and instability at a time when we can ill 
afford to do that?
    Secretary Spencer and Admiral Richardson. Beginning in Fiscal Year 
(FY) 2015, the Navy transitioned all Continental United States (CONUS) 
Private Shipyard maintenance contracts to Multiple Award Contract, 
Multi Order (MAC-MO) Firm Fixed Price (FFP). Navy contracting in 
regions outside the U.S. (i.e., Rota and Bahrain) is also FFP. Hawaii 
will be the last region to transition from Multi-Ship, Multi-Option 
(MSMO) Cost Plus (CP) to MAC-MO FFP, commencing in FY 2019.
    This approach balances risk across Government and Industry while 
maintaining flexibility and responsiveness to the Fleet through 
enhanced competitive pricing. As with any contract for ship repair 
there are fact of life risks associated with performance. The 
Government will use highly trained Regional Maintenance Center 
personnel to administer these contracts and complete contractor 
oversight and quality assurance in order to mitigate risk. As we move 
forward, we will continue to evaluate the best maintenance model for 
the Navy and for Hawaii.
    The Navy recognizes that Hawaii has unique geographic market 
factors and has engaged with the island industrial base and Pearl 
Harbor Naval Shipyard to understand and mitigate risks associated with 
this transition. Industry engagements held over the last year and 
market research indicates sufficient large and small business 
capability, capacity, and interest to support this transition. The Navy 
will continue to coordinate with the industrial base in Hawaii through 
various forums.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
